CERTIFICATE OF COMPLIANCE
No. 19-71

FNU TANZIN, ET AL.,
v.

Petitioners,

MUHAMMAD TANVIR, ET AL.,
Respondents.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

As required by Supreme Court Rule 33.1(h), I certify that the Brief of the
American-Arab Anti-Discrimination Committee as Amicus Curiae in Support of
Respondents contains 4,774 words, including footnotes but excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d). In making this
certification, I have relied on the word count of the word-processing system used to
prepare this Brief.
Pursuant to 28 U.S.C. ยง 1746, I declare under penalty of perjury that the
foregoing is true and correct.
Executed on February 12, 2020.

/s/ Christopher J. Wright
_
Christopher J. Wright
Harris, Wiltshire & Grannis LLP
1919 M Street NW, Fl. 8
Washington, DC 20036
(202) 730-1300
cwright@hwglaw.com
Counsel for Amicus Curiae

